<html>
<title> - IMPLEMENTATION OF THE ``LAW ENFORCEMENT OFFICERS SAFETY ACT OF 2004'' (PUB. L. NO. 108-277) AND ADDITIONAL LEGISLATIVE EFFORTS AIMED AT EXPANDING THE AUTHORITY TO CARRY CONCEALED FIREARMS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
 IMPLEMENTATION OF THE ``LAW ENFORCEMENT OFFICERS SAFETY ACT OF 2004''  
   (PUB. L. NO. 108-277) AND ADDITIONAL LEGISLATIVE EFFORTS AIMED AT  
          EXPANDING THE AUTHORITY TO CARRY CONCEALED FIREARMS 

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 6, 2007

                               __________

                           Serial No. 110-120

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

37-602 PDF                       WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 




                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
WILLIAM D. DELAHUNT, Massachusetts   CHRIS CANNON, Utah
ROBERT WEXLER, Florida               RIC KELLER, Florida
LINDA T. SANCHEZ, California         DARRELL ISSA, California
STEVE COHEN, Tennessee               MIKE PENCE, Indiana
HANK JOHNSON, Georgia                J. RANDY FORBES, Virginia
BETTY SUTTON, Ohio                   STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
                 Joseph Gibson, Minority Chief Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

MAXINE WATERS, California            J. RANDY FORBES, Virginia
WILLIAM D. DELAHUNT, Massachusetts   LOUIE GOHMERT, Texas
JERROLD NADLER, New York             F. JAMES SENSENBRENNER, Jr., 
HANK JOHNSON, Georgia                Wisconsin
ANTHONY D. WEINER, New York          HOWARD COBLE, North Carolina
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
ARTUR DAVIS, Alabama                 DANIEL E. LUNGREN, California
TAMMY BALDWIN, Wisconsin
BETTY SUTTON, Ohio

                      Bobby Vassar, Chief Counsel

                    Michael Volkov, Minority Counsel















                            C O N T E N T S

                              ----------                              

                           SEPTEMBER 6, 2007

                                                                   Page

                           OPENING STATEMENT

The Honorable Robert C. ``Bobby'' Scott, a Representative in 
  Congress from the State of Virginia, and Chairman, Subcommittee 
  on Crime, Terrorism, and Homeland Security.....................     1
The Honorable J. Randy Forbes, a Representative in Congress from 
  the State of Virginia, and Ranking Member, Subcommittee on 
  Crime, Terrorism, and Homeland Security........................     3

                               WITNESSES

Chief Scott Knight, Firearms Committee Chairman, International 
  Association of Chiefs of Police, Alexandria, VA
  Oral Testimony.................................................     5
  Prepared Statement.............................................     8
Sheriff Craig Webre, President, National Sheriff's Association, 
  Alexandria, VA
  Oral Testimony.................................................    18
  Prepared Statement.............................................    20
Mr. Thomas Penoza, National Treasurer, Grand Lodge, Fraternal 
  Order of Police, Washington, DC
  Oral Testimony.................................................    21
  Prepared Statement.............................................    24

                                APPENDIX

Material Submitted for the Hearing Record........................    39


 IMPLEMENTATION OF THE ``LAW ENFORCEMENT OFFICERS SAFETY ACT OF 2004'' 
   (PUB. L. NO. 108-277) AND ADDITIONAL LEGISLATIVE EFFORTS AIMED AT 
          EXPANDING THE AUTHORITY TO CARRY CONCEALED FIREARMS

                              ----------                              


                      THURSDAY, SEPTEMBER 6, 2007

              House of Representatives,    
              Subcommittee on Crime, Terrorism,    
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 10:08 a.m., in 
Room 2237, Rayburn House Office Building, the Honorable Robert 
C. ``Bobby'' Scott (Chairman of the Subcommittee) presiding.
    Present: Representatives Scott, Sutton, Forbes, and Coble.
    Staff present: Bobby Vassar, Subcommittee Chief Counsel; 
Ameer Gopalani, Majority Counsel; Mario Dispenza, (Fellow) 
BATFE Detailee; Veronica Eligan, Majority Professional Staff 
Member; Michael Volkov, Minority Counsel; Caroline Lynch, 
Minority Counsel; and Kelsey Whitlock, Minority Staff 
Assistant.
    Mr. Scott. The Subcommittee will come to order. The 
Subcommittee on Crime, Terrorism, and Homeland Security 
welcomes you to today's hearing on the implementation of the 
Law Enforcement Officers Safety Act of 2004 and additional 
legislative efforts aimed at expanding the authority to carry 
concealed firearms.
    As part of today's hearing, the Subcommittee will examine 
several important issues. First, we will hear testimony about 
how the Law Enforcement Officers Safety Act of 2004 is 
currently being implemented. Second, the Subcommittee will 
examine arguments in favor and against expanding the scope of 
the bill through H.R. 2726, the ``Law Enforcement Officers 
Safety Act of 2007.''
    Finally, the Subcommittee will examine proposed legislation 
that would allow Federal judges, prosecutors, and other 
Department of Justice employees to carry concealed weapons 
under circumstances that would be specified by the attorney 
general. In 2004, the 108th Congress enacted the Law 
Enforcement Officers Act of 2004, which amended the Federal 
criminal code and authorized qualified, active duty, and 
retired law enforcement officers to carry concealed firearms at 
all times, including in jurisdictions in which they are not 
employed as officers.
    During our Committee's past consideration of the measure, 
several concerns were pointed out, namely, highlighting the 
overly-broad definition of ``law enforcement officer,'' which 
was written to include corrections, probation, and parole, and 
judicial officers. It also included police, sheriff, and other 
law enforcement officers who had or have statutory arrest 
power, or who are engaged in the prevention, detection, 
investigation, supervision, and incarceration of alleged 
violators of law.
    The second concern I raised centered around the overall 
message that legislation seemed to send. The measure seemed to 
suggest, if not also encourage, law enforcement officers to 
assist in protecting the public in jurisdictions outside of the 
State in which they are employed. At that time, several 
concerns were mentioned, and we highlighted instances whereby 
even within the same jurisdiction off-duty, plain clothes law 
enforcement officers had shot other off-duty officers in gun 
battles where those in plain clothes were mistaken for 
criminals. Today we will submit additional articles.
    Finally, it was pointed out with regard to types of 
concealed firearms which kinds of firearms would be brought 
into the jurisdiction by out-of-State officers and how these 
weapons were managed. But, unfortunately, those concerns were 
not considered appropriately back in 2004.
    H.R. 2726, the ``Law Enforcement Officers Safety Act of 
2007,'' will make certain changes. Turning away from the focus 
of our previous debates and on the new ones, we are here to 
consider the bill introduced by my friend and Virginia 
colleague, Mr. Forbes, H.R. 2726, the ``Law Enforcement 
Officers Safety Act of 2007, which would expand the bill and 
expand the law in two significant ways.
    First, it would add Amtrak active duty and retired officers 
to the definition of qualified law enforcement officer. Second, 
it would amend the language in such a way to add officers who 
don't retire from a particular law enforcement agency, but 
merely depart from it having served 15 years, to qualify as a 
qualified law enforcement officer and obtain a permit to carry 
a concealed weapon, provided they satisfy other limited 
criteria.
    The bill also fixes a problem that some officers are 
finding in seeking to take advantage of the law. Some States 
have not developed a certification process called for in the 
law to allow retired officers to carry concealed weapons 
interstate. We don't have a particular problem with that part 
of the bill, although we do have concerns with others.
    And finally, the last topic to be taken up involves the 
carrying of concealed weapons by attorneys and Federal judges 
in Federal courthouses. A number of incidences over the past 
few years, including the murders of family members of a Chicago 
judge in 2005, the killing less than 2 weeks later of a State 
judge, a court reporter, and a sheriff's deputy in an Atlanta 
courthouse have prompted this Committee to consider various 
legislative proposals to strengthen security in State and 
Federal courthouses.
    In fact, during the course of one of the Committee's recent 
debates during our consideration of H.R. 660, the ``Court 
Security Improvement Act of 2007,'' the gentleman from Iowa, 
Mr. King, offered an amendment that would authorize judicial 
officers, U.S. attorneys, and other employees of the Department 
of Justice, whose duties include representing the United States 
in a court of law, to carry firearms in both private and public 
places, subject to regulations promulgated by the attorney 
general. Today we will hear testimony about the proposal and 
whether or not it is needed at this time.
    With that, it is my pleasure to recognize the Ranking 
Member of the Subcommittee, my Virginia colleague, Mr. Forbes, 
who represents Virginia's 4th Congressional District.
    Mr. Forbes. Thank you, Chairman Scott. I want to thank you 
for scheduling this hearing to examine implementation of the 
Law Enforcement Officers Act of 2004 and Congressman King's 
proposal to authorize Federal judges and prosecutors to carry 
firearms.
    Law enforcement officers are never off duty. They are sworn 
to uphold public safety, whether or not they are in uniform or 
on duty, and serve in the front lines of our communities 
against terrorists, gangs, and other criminals.
    Congress recognized this in 2004 when it passed the Law 
Enforcement Officers Safety Act, which authorized retired law 
enforcement officers to carry firearms, particularly when 
traveling outside of their jurisdiction. By doing so, Congress 
intended to promote public safety by increasing the number of 
active and retired qualified law enforcement officers 
authorized to carry firearms.
    There are approximately 800,000 sworn law enforcement 
officers currently serving in the United States. While a police 
officer may not remember the name and face of every criminal he 
or she has locked behind bars, criminals often have long 
memories. Law enforcement officers are targeted in uniform and 
out, active or retired, on duty or off.
    Since enactment of the Law Enforcement Officers Safety Act 
it has become clear that some jurisdictions have sought to 
prevent qualified retired officers from complying with the law. 
In many cases, retired officers have experienced significant 
frustration in getting certified to lawfully carry a firearm. 
That is why I introduced H.R. 2726, the ``Law Enforcement 
Officers Safety Act of 2007.''
    Under current law, qualified retired law enforcement 
officers must carry required documents and a State-issued 
identification verifying the officer's firearms qualification. 
Some States have simply refused to issue identification 
verifying the officer's firearm qualifications in order to 
frustrate Congress' intent.
    To address this issue, my legislation would provide an 
alternative to a State-issued document, require law enforcement 
officers to carry a certification, from a firearms instructor, 
that they meet the active duty standards for qualifications in 
firearms training, as established by the State or a law 
enforcement agency in that State. This will ensure that 
qualified retired law enforcement officers will no longer be 
prevented from carrying their firearms over what is simply a 
paperwork issue.
    In addition to these adjustments, the bill also makes clear 
that Amtrak officers, along with officers of the executive 
branch of the Federal Government, are covered by the law. 
Though these changes broaden the reach of the law, the 
requirements for eligibility still include a 15-year term of 
service for a retired officer to qualify.
    Federal judges and prosecutors also should be authorized to 
carry firearms. Congressman King's proposal to authorize the 
carrying of such firearms is a common sense solution to an 
increasingly dangerous job, prosecuting and administering 
justice in the Federal justice system.
    Congressman King's proposal was enacted by Congress in the 
109th Congress and would authorize judges and attorneys to 
carry a firearm subject to specific requirements, training, and 
certification in the use of firearms. Threats against Federal 
judges continue at a disturbing rate. Prosecutors handling 
dangerous cases are threatened, shot at or otherwise attacked. 
Current Department of Justice policies and procedures 
authorizing a prosecutor to carry firearms through a special 
deputation process are entirely too slow and ineffective.
    I look forward to hearing from today's witnesses and to 
working with my friend, Mr. Scott, on these important issues.
    Mr. Scott. Thank you, Mr. Forbes.
    We have a distinguished panel of witnesses here today to 
help us consider the important issues which are before us. Our 
first witness is Police Chief Scott Knight, chairman of the 
firearms committee of the International Chiefs of Police.
    Chief Knight has over 30 years of law enforcement 
experience and has served as the Chaska, Minnesota chief of 
police since January 2000. He has also served as a faculty 
member for the William Mitchell College of Law, Centers for Law 
Leadership and the Upper Midwest Community Policing Institute.
    Our second witness will be Sheriff Craig Webre, president 
of the National Sheriff's Association. He was elected sheriff 
of Lafourche Parish, Louisiana in 1991, and began his law 
enforcement career over 25 years ago as the police officer in 
the city of Thibadaux, later served as deputy sheriff and a 
State Trooper for the Louisiana State Police. He holds a B.A. 
degree in criminal justice and a J.D. from Loyola University 
School of Law.
    Our final witness will be Tom Penoza, national treasurer 
for the Paternal Order of Police. He is a retired captain from 
the Newark, Delaware Police Department, where he served for 
over two decades. And the last 13 years he has held the 
position of special investigator for the Delaware State's 
attorney general's office. The primary role in this office is 
to investigate white collar crime. He also attended and 
graduated from the 150th session of the FBI National Academy.
    Each of our witnesses' written statements will be entered 
into the record in its entirety. I would ask each of our 
witnesses to summarize his testimony in 5 minutes or less. And 
to help you stay within that time is the timing device right in 
front of us. The light will start with green. It will switch to 
yellow when there is 1 minute left in the 5 minutes. When the 
light turns red, it signals that the witness' 5 minutes have 
expired.
    Chief Knight?

 TESTIMONY OF CHIEF SCOTT KNIGHT, FIREARMS COMMITTEE CHAIRMAN, 
 INTERNATIONAL ASSOCIATION OF CHIEFS OF POLICE, ALEXANDRIA, VA

    Mr. Knight. Very good. Thank you. Thank you, Chairman 
Scott, Mr. Forbes, and all present today. I am pleased to be 
here this morning to present the views of the International 
Association of Chiefs of Police on the Law Enforcement Officers 
Safety Act and the proposed changes that are under 
consideration.
    The IACP is the world's oldest and largest association of 
law enforcement executives with more than 22,000 members in 100 
countries. Before I address our concerns, I would like to 
express my gratitude to you for your support of our Nation's 
law enforcement agencies and our law enforcement officers.
    As you know, the IACP strongly opposed to the Law 
Enforcement Officers Safety Act during its consideration in the 
109th Congress and is opposed to H.R. 2276, which would amend 
current language. Our opposition was, and is, based primarily 
on the fundamental belief that States and localities should 
determine who is eligible to carry firearms in their 
communities.
    Over the years, the IACP has consistently opposed any 
Federal legislative proposals that would either pre-empt and/or 
mandate the liberalization of an individual State's laws that 
would allow citizens of other States to carry concealed weapons 
in that State without meeting that State's requirements. The 
IACP believes it is essential that State governments maintain 
the ability to regulate who is carrying weapons in our 
communities and what type of weapons they are. This applies to 
laws that cover private citizens as well as active or former 
enforcement personnel.
    The IACP also believes that each State should retain the 
power to determine whether it wants police officers that are 
trained and supervised by agencies outside their State to carry 
weapons in their jurisdictions. In addition, authority for 
police officers to carry firearms when off duty, use-of-force 
policies, and firearms training standards vary significantly 
from State to State. Why should a police chief who has employed 
the most rigorous training program, a strict standard of 
accountability, and stringent policies be forced to permit 
officers who may not meet those standards to carry a concealed 
weapon in his or her jurisdiction?
    In addition to these fundamental questions over the 
preemption of State and local firearms laws, the IACP is also 
concerned with the impact that this legislation may have on the 
safety of our officers and our communities. There can be no 
doubt that police executives are deeply concerned for the 
safety of our officers. There is no doubt.
    We understand that the proponents of this law contend that 
police officers need to protect themselves and their families 
while traveling, and that undercover officers may be targets if 
recognized on vacation or travel. These are considerations, but 
they must be balanced against the potential dangers involved.
    One of the reasons that this legislation is especially 
troubling to our Nation's enforcement executives is because 
they could, in fact, threaten the safety of police officers by 
creating tragic situations where officers from other 
jurisdictions are wounded or killed by local officers wherein 
events unfold in seconds and identities are unknown and tragic 
results ensue.
    Police departments throughout the Nation train their 
officers to respond as a team to dangerous situations. This 
teamwork requires months of training to develop and provides 
the officers with an understanding of how their fellow officers 
will respond when facing different situations. And it can be so 
detailed as to code words that they all know will disclose who 
is undercover and who is not.
    Injecting an armed, unknown officer, who has received 
different training and is operating under different 
assumptions, can turn an already dangerous situation deadly. 
Further, the IACP is concerned that the law specifies that only 
an officer who is not subject to a disciplinary action is 
eligible. Since passage, this provision has raised several 
concerns for law enforcement executives as they have struggled 
to comply with the provisions of the law.
    For example, what types of disciplinary actions does this 
cover? Does this provision apply only to current investigations 
and actions? How are officers to ascertain that an out-of-State 
law enforcement officer is subject to a disciplinary action and 
therefore ineligible to carry a firearm?
    Additionally, while the law does contain some requirements 
to ensure that retirees qualify to have a concealed weapon, 
they are insufficient and would be difficult to implement. The 
law and subsequent proposals to amend it has failed to take 
into account those officers who have retired under threat of 
disciplinary action or dismissal for emotional problems that 
may not have risen to the level of mental instability.
    Officers who retire or quit just prior to a disciplinary or 
competency hearing may still be eligible for benefits and 
appear to have left the agency in good standing. Even a police 
officer who retires with exceptional skills today may be 
stricken with an illness or other problems that makes him or 
her unfit to carry a concealed weapon, but they will not be 
overseen by a police management in what we call early warning 
systems to ferret out any problems.
    Finally, the IACP is also concerned over the liability of 
law enforcement agencies for the actions of an off-duty officer 
who uses or misuses their weapon while out of State. If an off-
duty officer uses or misuses his or her weapon while in another 
State, it is surely likely that his or her department will be 
forced to defend itself against liability charges in that other 
State. The resources that mounting this defense would require 
would be better spent serving our communities, the communities 
we serve.
    I am sorry. I see the red light. Thank you.
    Before I conclude, I would like to speak briefly about the 
IACP's concern with H.R. 2726. Particularly troubling to the 
IACP are provisions that appear to weaken severely the 
ineligibility, or the eligibility and training requirements for 
retired police officers to carry concealed weapons.
    In particular, the IACP is deeply troubled that provisions 
proposed in section 2 (b) of H.R. 2726 would effectively 
eliminate the ability of States and localities to determine 
what firearm standards a retired law enforcement officer must 
meet before qualifying to carry a concealed firearm in his or 
her jurisdiction. Specifically, the provisions of section 2 (b) 
would appear to mandate that, in the absence of any State 
standard, the standards set by any police department within the 
State would become the de facto standard for the entire State.
    Additionally, the IACP is concerned that by weakening the 
current definition of eligibility from retired to departed, 
problems could arise when a law enforcement officer leaves the 
policing profession and embarks on an entirely new career. 
Definitions of departed, what led to the departing--all those 
things are of great concern and are not defined.
    As I stated earlier, the ability of law enforcement 
agencies to establish, implement, and maintain firearms 
standards and training requirements varies greatly from State 
to State and from jurisdiction to jurisdiction. Some 
jurisdictions have developed rigorous training programs and 
have established strict standards of accountability and 
stringent firearms polices, while, frankly, other jurisdictions 
have not. This legislation would undercut the ability of State, 
tribal and local enforcement agencies to determine what 
standards best meet the needs of the departments and the 
communities we serve.
    This does conclude my statement. And I am happy to take any 
questions. And I thank you for this opportunity.
    [The prepared statement of Mr. Knight follows:]
                   Prepared Statement of Scott Knight

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Scott. Thank you.
    We have been joined by the gentlelady from Ohio, Ms. 
Sutton, and the gentleman from North Carolina, Mr. Coble.
    Sheriff Webre?

TESTIMONY OF SHERIFF CRAIG WEBRE, PRESIDENT, NATIONAL SHERIFF'S 
                  ASSOCIATION, ALEXANDRIA, VA

    Mr. Webre. Good morning, Mr. Chairman, Members of the 
Committee. My name is Craig Webre. I am the elected sheriff of 
Lafourche Parish, LA, located about 50 miles southwest of the 
city of New Orleans, a post I have held for 15 years. And I am 
appearing here in my capacity as the president of the National 
Sheriff's Association, representing over 3,000 of America's 
elected sheriffs and a membership of over 21,000, making us one 
of the largest law enforcement associations in the country.
    We appreciate the opportunity to address your Committee. 
And our written comments have been submitted for the record and 
for your review.
    I am appearing this morning to testify against the proposed 
amendments to the Law Enforcement Officers Safety Act of 2007, 
which is codified in 18 U.S.C. Section 926 (C). In particular, 
our association is strongly opposed to the modifications to 
section C, which would greatly broaden and enhance the category 
of retired law enforcement officer. Under the current 
legislation, the 2004 version, a retired qualifying law 
enforcement officer must meet two criteria. They have to have 
been employed for at least 15 years, regularly employed as a 
law enforcement officer, and they must have earned a 
nonforfeitable right to a benefit and be in good standing.
    The amendment would eliminate the requirement of a benefit, 
a nonforfeitable right to a benefit in good standing. And the 
Senate version would further weaken this legislation by 
reducing the requisite period of time from 15 years to 10 
years.
    If enacted, we believe that this would compromise the 
integrity of the Law Enforcement Officers Safety Act. It would 
further complicate the implementation of the act, and it would 
be a tremendous disservice to the actual bona fide retired law 
enforcement officers across this country who have truly 
sacrificed and are committed to public safety.
    Let me briefly address each point for the Committee. With 
respect to a clear definition and understanding, all of us in 
law enforcement understand and have credentials for active law 
enforcement.
    Similarly, we understand and have credentials for bona fide 
retired police officers who have rights to a pension. In most 
cases, the agency that they retire from will provide them with 
a photograph identification commission card that they will 
carry with them to identify them as a police officer. To 
deviate from that standard and to reduce it from 15 to 10 years 
invites a category or a class of people that we will know very 
little about in terms of background, suitability or history of 
employment.
    My experience and the experience of the colleagues that I 
have spoken to about this issue suggests that the 10- to 15-
year time period is a threshold event in a police officer's 
career. By that I mean most officers who are going to leave law 
enforcement leave before 10. If they reach 10, then they are in 
for the long haul.
    Those who leave in that 10-to 15-year period are often 
forced to leave or leave because they are a problem officer. 
And they move from agency to agency to agency. So we believe it 
is a greater probability that officers falling within that 
timeframe and who don't officially retire may have separated 
under less than ideal circumstances.
    In addition, you may have an officer, as the chief 
mentioned, who went to work in 1970 or 1975 for 10 years or 15 
years, left law enforcement, and now here we are 25, 30 years 
later, and we have advanced in laws and changes to the criminal 
justice system that these officers have not kept abreast of. 
More particularly, we believe that CEOs, chiefs, sheriffs, and 
law enforcement managers will be more concerned from the 
liability standpoint if a person who did not retire with their 
agency is now calling upon them to provide some sort of 
verification of employment. So we believe there are far too 
many what ifs and unknowns to broaden the category of retired 
law enforcement officer qualifications under LEOSA.
    My second point is the implementation complications. The 
stated goals and purposes, as was mentioned, are to enhance 
public safety, to provide for police officer safety, and an 
added benefit and coming from south Louisiana where we 
experienced the Katrina tragedy, is when officers come into our 
jurisdiction, they come with the ability to bring a weapon 
without violating laws. However, we can't say that those other 
goals have been achieved or realized to the extent that the 
original act hoped that they would.
    We know that the implementation has been very problematic. 
I mentioned that I have been a sheriff for 15 years. We have 
250 sworn officers in the Lafourche Parish Sheriff's Office who 
would qualify under this act.
    Since its implementation, not a single deputy has ever 
presented himself for the right to carry out-of-State concealed 
pursuant to LEOSA, nor have any of the retirees asked to be 
trained or sought credentials to provide themselves or avail 
themselves of the privileges of this act. Nor am I aware of any 
law enforcement officer from another jurisdiction coming into 
our area.
    Mr. Chairman, I see I am out of time. May I continue?
    Mr. Scott. Yes.
    Mr. Webre. Thank you. So despite this statute, we see that 
it is not being implemented, at least in our region.
    One of the other things that would happen is if an officer 
were allowed to aggregate their time without retiring, say they 
worked for three agencies for 5 years each, which agency do 
they get certification from? Do they go to three agencies and 
get three identification cards? Do they go to one agency that 
certifies the other two agencies?
    Is there an issue of forum shopping where they will go to 
the agency that they had the best record and avoid the agencies 
where they may have had disciplinary records? Do they run into 
the situation of creating falsified or counterfeit credentials?
    If they come into Lafourche Parish and a deputy encounters 
them and that deputy has to make a decision whether this person 
should be arrested or released, and they don't have the ability 
on the weekend or at night to verify their credentials, it puts 
them in a dilemma, as well. Actually, if the Congress chooses 
to create a national concealed carrier permit, then it probably 
ought to be a federalized process much in the way that we do 
gun checks or gun checks are done for Brady bill and purchase 
of guns.
    And my final point is the point I made earlier. I think we 
do a tremendous disservice to the men and women, the thousands 
of police officers across our country who have truly put in 15, 
20, 25, 30 and beyond years who have earned the right to carry 
a retired commission and receive a benefit and now would have 
the right under this benefit if we extend it to those who don't 
retire.
    Thank you on behalf of the National Sheriff's Association 
for this opportunity. And like my colleague, the chief, I am 
happy to answer questions.
    [The prepared statement of Mr. Webre follows:]
                   Prepared Statement of Craig Webre
    Mr. Chairman and members of the Committee, my name is Craig Webre 
and I currently serve as the Sheriff of Lafourche Parish, Louisiana and 
President of the National Sheriffs' Association. The National Sheriffs' 
Association represents over 3,000 elected sheriffs across the country 
and over 22,000 law enforcement professionals making us one of the 
largest law enforcement associations in the nation. I am pleased to 
have this opportunity to appear before you today to express my concerns 
with the proposed measure that would amend the federal criminal code to 
authorize certain categories of current and retired law enforcement 
officers to carry concealed firearms.
    As you may be aware, sheriffs play a unique role in our criminal 
justice system. In addition to providing traditional policing within 
their respective counties, sheriffs also manage local jails and are 
responsible for providing court security. Over 99% of the sheriffs are 
elected and oftentimes serve as the chief law enforcement officer of 
their counties. Consequently, we have a keen understanding of the needs 
of our criminal justice system as well as of the local communities we 
serve.
    The Law Enforcement Officers Safety Act (LEOSA), enacted in 2004, 
allows two classes of persons--the ``qualified law enforcement 
officer'' as defined in 18 U.S.C. Sec. 926 (B) and the ``qualified 
retired law enforcement officer'' as defined in Sec. 926 (C)--to carry 
a concealed firearm in any jurisdiction in the United States, 
regardless of any conflicting state or local law, with certain 
exceptions.
    The National Sheriffs' Association supported the Act in the 108th 
Congress based on the premise that allowing trained, active-duty and 
retired law enforcement officers to carry firearms could only enhance 
public safety. It would also allow current and former officers to 
defend themselves against revenge attacks by those they once brought to 
justice.
    However, as a practical matter, it has been difficult for states to 
implement the Act. For example, LEOSA's preemption of state and local 
concealed carry prohibitions can take effect without any action by 
state or local officials as long as the individual police officer in 
question meets all the requirements of the Act. Yet, many local 
agencies have said they will not issue the necessary credentials or 
attest that a given retired officer has fulfilled that agency's 
training requirement. These agencies are understandably concerned about 
the potential liability they may face if they issue concealed-weapon 
credentials to an officer who later uses his or her weapon without 
justification.
    Further, the Act is confusing to officers traveling across state 
lines because they lack sufficient information about the concealed 
carry laws of other jurisdictions. What's more, the law has yet to show 
that it has produced any benefit to public safety. In fact, rather than 
a reduction in the rate of violent crime--which we had hoped LEOSA 
would facilitate--we have instead seen a dramatic increase in the exact 
type of criminal activity the Act was intended to prevent. Given these 
disappointing results, I am here to express our reservations about the 
proposed measure, the Law Enforcement Officers Safety Act of 2007 (S. 
376, H.R. 2726), which would amend 18 U.S.C. Sec. 926 (C). We believe 
that the proposed amendment unnecessarily expands the term ``qualified 
retired law enforcement officer'' who can carry a concealed firearm.
    Specifically, we are concerned with the proposed revision that 
strikes paragraph (4) of Sec. 926 (C) which would eliminate the 
requirement that the officer ``has a non-forfeitable right to benefits 
under the retirement plan of the agency.'' In addition, the Senate 
bill, S. 376, would change the requisite 15 years or more of law 
enforcement service to 10 years to be considered as a ``qualified 
retired law enforcement officer'' under this section. Similarly, the 
House bill, H.R. 2726, eliminates the requirement that a qualified 
retired law enforcement officer in fact be ``retired.'' Rather, under 
these proposed measures, a law enforcement officer who has ``departed'' 
from service would qualify to carry a concealed firearm anywhere in the 
nation under the previously defined ``qualified retired law enforcement 
officer.''
    The Senate and House bills therefore seems to imply that any 
certified officer who is separated from his or her position as a law 
enforcement officer, regardless of whether they meet the longevity 
requirement needed to qualify for retirement benefits, would qualify as 
``retired'' under the amended law. Once grouped into the ``retired'' 
category, these officers would have just as much right to carry a 
concealed firearm as officers with many more years of law enforcement 
experience. We believe that such a change would be contrary to the 
intentions of LEOSA's drafters.
    It was not mere semantics that led LEOSA's drafters and supporters 
to require that an officer be ``retired,'' rather than simply a 
``former'' officer before being granted nationwide concealed-carry 
rights. The Act's drafters did not intend that any officer who has 
received basic training and been employed for the minimum period of 
time to become certified be allowed to carry a concealed weapon. We 
believe that carrying a concealed firearm is a privilege that should be 
bestowed only upon those retired law enforcement officers who have 
extensive experience, have dedicated their lives to protect the safety 
of our citizens, and have demonstrated through their past conduct that 
they are deserving of such a responsibility. We strongly believe that 
when considering the expansion of such a privilege we must not act 
hastily, but must instead closely examine the potential unintended 
consequences of such a change.
    At this time, we are not convinced the proposed changes being 
considered by this Committee are necessary, or that the potential 
benefits would outweigh the unintended negative consequences. Before 
expanding the current law, we believe that further study to determine 
the practical effects of the Act would be a prudent next step. The 
proposed amendment to LEOSA is an attempt to find a simple solution to 
a complex problem. Simply enabling more people to carry concealed 
firearms is not a solution to providing additional public safety or 
addressing the recent dramatic increase in violent crime.
    I want to thank the Chairman and members of this Committee for 
conducting this hearing and listening to the concerns of the law 
enforcement community before taking action on this bill. As an elected 
official and a law enforcement officer, I am dedicated to ensuring the 
well-being and safety of all citizens, including my fellow men and 
women in uniform. With that in mind, I ask for your full consideration 
of my comments today.

    Mr. Scott. Thank you.
    Mr. Penoza?

 TESTIMONY OF THOMAS PENOZA, NATIONAL TREASURER, GRAND LODGE, 
           FRATERNAL ORDER OF POLICE, WASHINGTON, DC

    Mr. Penoza. Good morning, Mr. Chairman and distinguished 
Members of the Subcommittee on Crime, Terrorism, and Homeland 
Security. My name is Tom Penoza. I am here this morning at the 
request of Chuck Canterbury, the national president of the 
Fraternal Order of Police, which is the largest law enforcement 
labor organization in the United States, representing more than 
325,000 members in every region of the Nation. I am the 
national treasurer of the FOP and the longest-serving board 
member that serves on its executive board right now.
    I want to begin by thanking you, Mr. Chairman, for holding 
this hearing and giving the FOP an opportunity to talk about 
the implementation of the Law Enforcement Officers Safety Act, 
or LEOSA, and the need to amend it by adopting H.R. 2726, a 
bill that goes by that same name. One of the chief concerns 
with the implementation of the current law is fairness to 
retired officers.
    Under current law, qualified retired law enforcement 
officers must carry photographic identification issued by the 
agency from which they were employed, and they have to carry 
documentation that certifies that they have met active duty 
standards for qualification with a firearm. This document must 
be issued by the retired officer's former agency or from the 
State in which he resides.
    Right now States which have not or have refused to adopt a 
procedure or mechanism for retired officers to qualify with 
their weapon are effectively preventing these retired officers 
from complying with the document requirements of Federal law. 
This issue was specifically addressed during the full Committee 
markup on H.R. 218 3 years ago in an exchange between then 
Chairman Sensenbrenner and Representative Ric Keller, which 
made it clear that the qualification document requirement was 
not intended as a way for a State to get around the Federal 
law.
    Unfortunately, despite the clarity of the exchange, there 
are some States and agencies doing exactly this. To address 
this issue, the FOP strongly supports the adoption of H.R. 
2726, which would provide that a certified firearms instructor 
could conduct and qualify retired law enforcement officers 
using the active duty standards for qualification in firearms 
training in those cases where States have chosen not to qualify 
the officers themselves.
    For example, my home State of Delaware does not have a 
procedure in place for retired officers who served outside the 
State and who now reside in Delaware. And we get a lot of them 
in our beach areas.
    If H.R. 2726 were adopted, these officers could be 
qualified by firearms instructors certified by the State of 
Delaware, and it would be based on our own State's standards. 
Under existing law, these officers have to return to their own 
agencies to get requalified.
    If, for example, a State does not recognize a state-wide 
standard, the instructor would be able to certify a retired 
officer based on an existing standard from a law enforcement 
agency within that State. This will ensure that retired 
officers are treated equitably under our current law and can no 
longer be prevented from carrying under LEOSA over what is 
simply a paperwork issue.
    The FOP would also like to advise the Committee of several 
other implementation problems that have come to our attention. 
The first of these is the requirement that an officer have a 
nonforfeitable right to benefits under the retirement plan of 
his agency.
    This has been problematic in agencies which do not offer 
any retirement benefit plan for their officers, and it seems to 
have disproportionately affected deputy sheriffs. The receipt 
of a retirement benefit after an officer has left the service 
of his agency should not affect his authority to carry a 
firearm, which supports the language in H.R. 2726, which would 
delete this language.
    The FOP also advocates expanding the definition of 
qualified active retired law enforcement officers include 
officers employed by the Amtrak Police Department. Now, let me 
emphasize this point. This is the only expansion of the current 
law which we support at this time.
    Amtrak is, under title 49, not a department, agency or 
instrumentality of the United States government. Therefore, 
police officers employed by Amtrak do not meet the definition 
in LEOSA, which requires them to be an employee of a Government 
agency. Yet, the Amtrak Police Department has been, and in many 
cases is, treated as a Federal law enforcement agency by the 
Federal Government.
    In fact, it is listed as a Federal law enforcement agency 
by the Bureau of Justice Statistics in the Justice Department. 
For this reason, the FOP supports the expansion of the current 
definition to include officers employed by the Amtrak Police 
Department.
    We also feel strongly that the implementation of the law is 
not being fairly applied to Federal law enforcement agencies. 
Clearly, any Federal law enforcement officer classified as a 
GS-0083 who is employed by the executive branch meets the 
definition of qualified active or retired law enforcement 
officer in the current statute.
    Yet it has come to our attention that certain Federal law 
enforcement agencies within the Department of Defense have 
informed law enforcement officers in their employ that they do 
not have statutory powers of arrest. They have the power of 
apprehension, and thus cannot carry under LEOSA.
    As a matter of law, it is not clear that the Federal law 
enforcement officers employed by the DOD have powers of arrest 
or apprehension, nor is it clear that there is any legal 
difference between these two terms. My 5 minutes is up. Can I 
go ahead and finish?
    Mr. Scott. Yes, continue making your point.
    Mr. Penoza. It is, however, certain that these officers can 
and do take suspected offenders into custody, book them, 
investigate the offenses, and testify in court. The only 
question is whether the individual they took into custody was 
arrested or apprehended and whether there is any distinction 
between those terms.
    If there is a genuine distinction, Congress should make it 
clear that it did not intend to exclude large numbers of 
Federal law enforcement officers from LEOSA. Congress adopted 
LEOSA to help make law enforcement officers safer. The problems 
have been encountered to date are primarily those of equitable 
treatment for retired officers. And I hope the Committee will 
help us address them.
    In conclusion, I would like to thank Representative Forbes 
for his leadership on this issue.
    And, Mr. Chairman, I would like to thank you for holding 
this hearing. And I will answer any questions you may have of 
me.
    [The prepared statement of Mr. Penoza follows:]
                  Prepared Statement of Thomas Penoza

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Scott. Thank you. Thank you very much.
    We will now have questions. And we will try to comply with 
the 5-minute as best we can.
    Mr. Penoza, on the present law, what does an officer have 
to do to get qualified to carry the weapons interstate? He has 
to go through a process of certification.
    Mr. Penoza. Yes, he has to go through whatever that State 
requires.
    Mr. Scott. Whatever the State requires? That could be just 
firearms training?
    Mr. Penoza. Well, whatever they require for firearms 
training.
    Mr. Scott. And----
    Mr. Penoza. Like my State has a specific criteria you have 
to meet as a law enforcement officer every year.
    Mr. Scott. And so, to carry the weapon, you would have to 
go through, get recertified every year?
    Mr. Penoza. Yes, sir.
    Mr. Scott. If the officer were in a different jurisdiction, 
a different State, how would the other State know whether he 
had qualified or not?
    Mr. Penoza. If he was in my State and got qualified?
    Mr. Scott. No, if an individual shows up in your 
jurisdiction and says he can carry a firearm, how do you know 
if he is, in fact, eligible to carry a firearm?
    Mr. Penoza. He would have to have the card that certifies 
he qualified in that other State.
    Mr. Scott. And that has----
    Mr. Penoza. That is set out in the bill.
    Mr. Scott. And that has an expiration date?
    Mr. Penoza. Yes, once every year. That has to be done every 
year.
    Mr. Scott. And do you have to go back to your former 
employer to get that certification?
    Mr. Penoza. You would unless the State that you are living 
in would qualify you.
    Mr. Scott. They would have to verify your employment.
    Mr. Penoza. Yes, sir, there would be a--I assume there 
would be some kind of forms. That is what we have in Delaware. 
Or that is what we are proposing.
    Mr. Scott. And what weapons are you allowed to carry?
    Mr. Penoza. The weapon that you qualify with.
    Mr. Scott. So if you qualify with a machine gun in one 
State, you can carry the machine gun in another State?
    Mr. Penoza. Well, under this law, whatever weapon you 
qualify with you would have to carry that weapon. Machine guns 
are excluded.
    Mr. Scott. Chief Knight, what is wrong with having officers 
from other States come into your State carrying firearms if 
they need those weapons to protect themselves?
    Mr. Knight. Firstly, if they are on duty and actually 
working in the capacity and they are in my jurisdiction, they 
are in concert with us typically, and certainly, they need to 
be armed to protect themselves. If they are on vacation, I 
think that whether or not they need to carry that weapon is 
certainly debatable.
    You know, earlier we talked about police officers. There 
was reference made honorably that officers are never off-duty. 
I submit that I, my colleagues, sheriff try very, very hard to 
make sure that when our officers are off duty they are off 
duty, and for a host of mental health reasons and balance of 
life issues. You are never off duty when you are carrying a 
gun. You shouldn't be.
    You have to have an elevated sense of hyper-vigilance when 
you are handling and carrying a weapon. The problem we have is 
if someone were to come into my city, my officers don't know 
them. We don't know what level of training they have or haven't 
had.
    If the State doesn't provide it, they can go to the lowest 
common denominator in the particular State where they are from. 
And we don't know what that is. We don't know how often they 
qualify with that weapon.
    We don't know if that is the weapon, indeed, they qualified 
with. Perhaps they purchased another, or, as is common, 
officers have multiple weapons. So the problem is the unknown 
and who is then in an enforcement capacity, potentially, armed, 
taking action in jurisdictions locally.
    Mr. Scott. Do the officers carrying these firearms check in 
with the local police when they show up?
    Mr. Knight. No, they don't.
    Mr. Scott. Wouldn't they know whether they need protection 
rather than the local police?
    Mr. Knight. Well, I think again that is debatable. I think 
we all have our perceptions, and we all have a feeling of our 
own personal security and safety. I can tell you I had no 
concerns about coming here unarmed. And when I am on vacation I 
don't feel I need to be armed. And I have worked in a number of 
capacities. And in my entire career, I have probably carried a 
gun off-duty maybe five times.
    Mr. Scott. I think one of you mentioned the question of 
civil liability if an officer gets into a situation where there 
is a lawsuit. Has that ever happened? Anybody? Has that ever 
happened?
    Mr. Knight. You know, I don't know that answer. I know it 
has not happened with my jurisdiction. But I would find it 
hard--I think it would be easily discovered that perhaps there 
has been something like that, and, indeed, it has happened.
    Mr. Scott. My time is just about up. Do you know of 
examples when officers have gotten in trouble dealing with 
officers from other jurisdictions, Chief Knight?
    Mr. Knight. Certainly. From my department, no, I don't. I 
know from my colleagues in larger cities that, indeed, they 
have. In fact, they have had that issue with their own 
undercover people when things are unfolding fast and furiously 
not knowing who is who.
    Mr. Scott. If your association has documentation for those 
incidents, we would appreciate you forwarding them.
    Mr. Knight. Absolutely.
    Mr. Scott. Thank you.
    Mr. Forbes. First of all, let me thank you all for being 
here and for what you do to keep us all safe. And let me be 
clear of a couple of things as we come to the hearing today. 
First of all, both Chief and Sheriff, I know that your 
organizations were against the Law Enforcement Officers Safety 
Act of 2004. Is that correct?
    Mr. Knight. That is correct.
    Mr. Webre. That is not correct, Congressman.
    Mr. Forbes. Before that act.
    Mr. Webre. The NSA did support LEOSA 2004.
    Mr. Forbes. All right. And, Chief, your organization was 
against it?
    Mr. Knight. We did oppose, correct.
    Mr. Forbes. But you both understand that is the law, that 
is the policy. It was passed by the House of Representatives, 
by the Senate, signed by the President. We are not here to 
debate that policy today.
    What I would want you to laser in on----
    Mr. Scott. Speak for yourself.
    Mr. Forbes. Mr. Chairman can put in legislation to repeal 
it. That is not before us. You know?
    I encourage him to do that if that is what he would like to 
do. But what we are lasering in on is H.R. 2726, the ``Law 
Enforcement Officers Safety Act of 2007.''
    Sheriff, let me ask you. Have you read that act?
    Mr. Webre. Yes, sir, I have.
    Mr. Forbes. And you are familiar with that? The questions I 
had asked you pertaining to that you could answer for me? Is 
that correct?
    Mr. Webre. I would do my best.
    Mr. Forbes. Now, if that act has been passed--and you have 
just heard Mr. Penoza indicate that some States are just 
saying, ``No, we don't care what the policy was that Congress 
established, the Senate established, the President established. 
We are just not going to issue those documents.'' You think 
that is appropriate for the State to do?
    Mr. Webre. If the State has a legitimate legal argument 
based on either a preemption issue or separation of powers, 
they certainly can advance that.
    Mr. Forbes. Have you heard in any such legal argument that 
has been put forward?
    Mr. Webre. I have read in various documentations concerns 
that States' rights issues have been raised with respect to 
this Federal legislation preempting their ability to regulate 
concealed carrying, yes.
    Mr. Forbes. We have documents that you talked about that 
some of your deputies get that suggest that they have certain 
retirement benefit rights, that they are given a certification 
in that. Could the State just come out and say, ``No, we are 
not going to issue that?''
    Mr. Webre. I can't give you an answer on that.
    Mr. Forbes. But if it would, it would kind of be 
inappropriate for the State to just say we are not going to 
issue it?
    Mr. Webre. If there is a Federal law that requires a State 
to issue a document, it would seem to suggest that they would 
issue it.
    Mr. Forbes. And that is what Mr. Penoza is basically coming 
here and saying. He said this policy has been established. 
Chief, you lost the fight. You might have been against it. You 
lost the fight. You guys enforce laws all the time that you 
don't particularly agree with and you don't particularly--
wouldn't have passed if you had have had the choice to do it.
    Mr. Penoza's saying that is the law. They are just simply 
looking us in the face and saying we are not going to issue the 
document. It has nothing to do with whether our people are 
qualified to carry the firearm. They are just not going to 
issue the documents.
    Chief, have you ever had a death threat?
    Mr. Knight. Absolutely.
    Mr. Forbes. Have you ever had any threats to your family?
    Mr. Knight. Not directly.
    Mr. Forbes. Have any of the people under you and under your 
employ ever had death threats?
    Mr. Knight. Yes, they have.
    Mr. Forbes. Have they had threats to their families?
    Mr. Knight. I am not aware.
    Mr. Forbes. How many would you say, percentage-wise, of 
officers that were under your employ have had such threats made 
to them at some point in time in their career?
    Mr. Knight. Serious, legitimate threats?
    Mr. Forbes. Any threats. I mean, I think it depends. A 
threat to you may not be serious to me.
    Mr. Knight. Exactly.
    Mr. Forbes. A threat to me becomes very serious.
    Mr. Knight. Exactly. I would say the bona fide, serious 
threats is a very small percentage.
    Mr. Forbes. Very small percentage.
    How about you, Sheriff? Have you ever had a threat to your 
life?
    Mr. Webre. Absolutely.
    Mr. Forbes. Have any of your deputies ever had threats to 
their lives?
    Mr. Webre. Yes, sir, they have.
    Mr. Forbes. Now, we are sitting in here trying to strike 
this balance that, Chief, you talked about. You couldn't come 
up with a single situation where that was a problem with an 
officer who had just not had the proper identification. You 
said you had read about some of them, but you never had one.
    Sheriff, did you have any in your jurisdiction where you 
had a problem in identifying another officer with a firearm 
that was in your jurisdiction?
    Mr. Webre. No, I have testified no one has ever presented 
themselves in our jurisdiction.
    Mr. Forbes. Neither of you have had those problems. But 
both of you have had problems where you have had people under 
your employ who have had threats to their family. We have got 
law enforcement officers out there.
    Mr. Penoza, how many people do you have in your 
organization that have had threats that have been made to them 
or to their families?
    Mr. Penoza. I don't know how many, but I am sure it is a 
lot.
    Mr. Forbes. A lot of them. And so, when we are trying to 
strike that balance, you know, one of the things that we are 
very much concerned with is when you talk about a police 
officer being off duty, the officers that we have had come to 
us in support of this legislation and the previous legislation 
say, you know, when I am on duty and I have these threats and 
the threats to my family, I have an obligation to try to 
protect my family, to try to protect me. I am trained to be 
able to do that.
    But you have pulled that gun, that weapon that I have been 
trained to be able to utilize to protect myself and to protect 
my family. You have taken it away from me. And you can't come 
up with a single situation except the hypotheticals, the things 
that we have read, where we have the problems with the I.D. 
problems that you suggest.
    But we can come up with documentation after documentation 
of law enforcement officers, people under your employ, who have 
had problems and threats to them and to their family. That is 
one of the things that we were very concerned about when we 
passed this legislation initially.
    Now, let me look at this particular piece of legislation 
with just the requirements that are in here. Let us look at the 
retirement versus leaving employment.
    And, Sheriff, you indicated--I think I quoted you right--
that we were doing a grave disservice to people who had served 
20 to 25 years by giving it to people who had only served 15.
    Mr. Webre. People who did not achieve a retirement benefit, 
people who were not bona fide retirees.
    Mr. Forbes. All right. Do you really think this legislation 
was designed to reward somebody and that was the purpose of 
this legislation, that it was designed to be a reward if you 
pulled a certain number of years in service?
    Mr. Webre. I believe the legislation was designed to 
acknowledge or identify those people who were committed to law 
enforcement, who lived a law enforcement officer's life, and 
who received a bona fide retirement. I don't believe it was 
designed for the officer who jumps from agency to agency to 
agency and has a spotty work history and simply comes up with 
10 or 15 years of combined service and says I am a police 
officer.
    Mr. Forbes. You are not going to suggest that just because 
somebody had 15 years versus 20 years that they had a spotty 
work history or jumped from agency to agency, are you?
    Mr. Webre. I am going to suggest that if they have ever got 
to a point of a legitimate, bona fide law enforcement 
retirement, then they are not as committed to the profession.
    Mr. Forbes. Do you have deputies that are in your 
organization that have no retirement benefits?
    Mr. Webre. All of the deputies that meet our criteria under 
Louisiana law will receive retirement.
    Mr. Forbes. Under Louisiana. I am talking about under your 
association. Do you have deputies that do not have retirement 
benefits?
    Mr. Webre. No, sir. If----
    Mr. Forbes. So every deputy that is covered under your 
organization has a retirement benefit?
    Mr. Webre. Every officer who meets the 12-year threshold 
for vesting rights will get a benefit. In fact, in Louisiana, 
participation in the retirement system is a condition of 
employment.
    Mr. Forbes. Mr. Penoza, your testimony was that there were 
certain officers that never reached a retirement benefit, 
didn't have it available to them. Is that correct?
    Mr. Penoza. That is why I have been there so long--that 
401(k).
    I am sorry. I know people around the country that don't 
have a retirement plan, they don't get a pension when they 
retire. They have some sort of investment plan of their own. 
And the department or the State doesn't have a retirement plan.
    Mr. Forbes. Sheriff, you are not familiar with any of those 
people that Mr. Penoza is talking about?
    Mr. Webre. No, sir, I am not.
    Mr. Forbes. Chief, are you familiar with anybody in your 
whole organization? I am not talking about just your local 
organization. But I am talking about under the chief's 
association, any of the law enforcement people who have no 
retirement benefit.
    Mr. Knight. No, not any.
    Mr. Forbes. All right. The last question because my time is 
out is do you think the Amtrak officers should be covered under 
this legislation. And if not, tell me how you differentiate, 
Sheriff, if you would.
    Mr. Webre. We have no objection to that provision.
    Mr. Forbes. So you don't have any objection to that.
    Chief, how about you?
    Mr. Knight. No.
    Mr. Forbes. So you don't have any. So you don't object to 
the Amtrak provision? The main objection you have, Chief, as I 
understand it, under the legislation proposed, not under the 
previous legislation, was the fact that you think that vesting 
someone with retirement benefits makes them in a safer position 
to carry a firearm. Is that correct?
    Mr. Knight. It provides an opportunity to get documentation 
that is acceptable, credentials that are common in the 
industry, and a commitment as opposed to the officer who may 
have been terminated or resigned under duress and hopped from 
agency to agency to agency and never had a commitment to the 
extent that they would gain any kind of a status.
    Mr. Forbes. And, Chief, your position is the same?
    Mr. Knight. That is correct.
    Mr. Forbes. You don't have a problem with Amtrak. You just 
think that people ought to have a retirement benefit. Is that 
correct?
    Mr. Knight. Well, I hope we all have retirement benefits.
    Mr. Forbes. Yes, I am talking about as far as the 
qualifications to carry firearms.
    Mr. Knight. That is correct.
    Mr. Forbes. And you want to explain why you think the 
qualification to retirement benefit helps somebody carry a 
firearm in a more safe manner?
    Mr. Knight. Certainly, absolutely. First, let me say you 
are absolutely correct. We lost the fight. But, you know, we 
are all cops, and one thing we learn is we keep standing up, we 
keep coming back.
    In regards to the retirement, it shows a period of tenure, 
investment, and that it has not been a situation where someone 
has put in a minimum amount of time and perhaps changed 
careers. That is as simply as I can state that.
    Mr. Forbes. And 15 years wouldn't be a minimum amount of 
time?
    Mr. Knight. Fifteen years is substantial, but there is 
discussion about the tenure period.
    Mr. Forbes. The bill before us says 15 years.
    Mr. Knight. All right, then. Fifteen?
    Mr. Forbes. You are comfortable that that establishes a 
minimum commitment to service, the 15-year period?
    Mr. Knight. Yes.
    Mr. Forbes. Okay.
    Mr. Penoza, any response to that? I mean, how do you feel 
about that, the retirement benefit? Does that give any 
assurances that you are going to be able to carry a firearm in 
a----
    Mr. Penoza. I don't think it should make any difference. I 
didn't know people 3 years ago--I didn't know there were people 
that didn't have some sort of retirement. Because from my area 
of the country, everybody I work with does. But since this has 
been enacted, that is one of the issues that has come up.
    Mr. Forbes. People have contacted your association saying 
they have had a problem because----
    Mr. Penoza. Yes.
    Mr. Forbes [continuing]. They have had their 15 years, they 
just were not covered by a retirement benefit and they still 
wanted to carry the firearm under the act?
    Mr. Penoza. Yes, sir.
    Mr. Forbes. But they were being denied the privilege to do 
this. Is that correct?
    Mr. Penoza. Yes, sir.
    Mr. Forbes. Thank you.
    Mr. Scott. Thank you.
    And, Mr. Coble?
    Mr. Coble. I will be very brief because I know we are on a 
tight timeframe here. I don't think this has been asked.
    Gentlemen, are you all aware of any instances where a law 
enforcement officer possessed a firearm pursuant to the Law 
Enforcement Officers Safety Act where someone was harmed, a, 
or, b, where a crime was prevented and perhaps a criminal 
apprehended? Are you familiar with either of those situations?
    Mr. Knight. First to me?
    Mr. Coble. Either of you.
    Mr. Knight. The answer is no to the first and--I am sorry. 
You want to know is this----
    Mr. Coble. If anyone was harmed, any innocent bystander 
harmed, a, or, b, was a crime prevented or an arrest or a 
criminal apprehended.
    Mr. Knight. I know of no one being harmed. I don't know of 
any crime that has been thwarted.
    Mr. Webre. I know of neither a or b.
    Mr. Penoza. The same answer. I don't.
    Mr. Coble. I yield back, Mr. Chairman.
    Mr. Scott. Thank you.
    And I thank our witnesses for being with us today. This has 
been very helpful. And we look forward to considering the bill.
    Mr. Webre. Thank you.
    Mr. Knight. Thank you.
    Mr. Scott. We stand adjourned.
    [Whereupon, at 10:59 a.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

Prepared Statement of the Honorable John Conyers, Jr., a Representative 
in Congress from the State of Michigan, and Chairman, Committee on the 
                               Judiciary

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
    Representative in Congress from the State of Texas, and Member, 
        Subcommittee on Crime, Terrorism, and Homeland Security
    Thank you, Mr. Chairman for holding this hearing. I am confident 
that working together with all members of the subcommittee we can 
address and resolve the real challenges regarding the safety and 
security of the nation's law enforcement personnel and the public.
    The purpose of today's hearing is three-fold. First, we seek to 
receive testimony from our witnesses regarding the effectiveness of the 
Law Enforcement Officers Safety Act of 2004, which was enacted in the 
108th Congress as Pub. L. 108-277. Second, during this hearing we will 
consider whether the scope of the privileges and responsibilities 
contained in that legislation should be expanded. Finally, we will hear 
testimony from our witnesses on the subject of whether federal judges, 
prosecutors and other Department of Justice employees whose ``duties 
include representing the U.S. government in a court of law'' should be 
permitted to carry concealed weapons in Federal courthouses and other 
public and private places.
    Let me extend a warm welcome to each of our witnesses:

        <bullet>  Chief Scott Knight, Firearms Committee Chairman, 
        International Association of Chiefs of Police

        <bullet>  Sheriff Craig Webre, President, National Sheriff's 
        Association

        <bullet>  Thomas Penoza, National Treasurer, Grand Lodge, 
        Fraternal Order of Police

    Mr. Chairman, I was a co-sponsor of the Law Enforcement Officers 
Safety Act of 2003, which authorized qualified off-duty and retired law 
enforcement officers to carry concealed weapons in any jurisdiction. On 
balance, I was persuaded that such authorization could have many 
beneficial effects in our efforts to curtail crime in our communities.
    Before reaching this conclusion, I held several discussions with 
several members of the Texas Fraternal Order of Police and the Houston 
Police Patrolmen's Union. Law enforcement officers in my district 
strongly supported the legislation, which I was proud to co-sponsor.
    I was not alone. The legislation garnered more than 290 cosponsors 
and was strongly supported by the Law Enforcement Alliance of America, 
the Fraternal Order of Police, the National Troopers Coalition, the 
National Association of Police Organizations, the International 
Brotherhood of Police Officers, and many law enforcement organizations.
    One of the reasons the legislation attracted broad support is 
because it offered the promise of an immediate, no-cost benefit to 
communities by simply allowing trustworthy officers to carry a 
concealed firearm full-time. Further, the life-saving benefits extended 
to the officers as well. Unlike law enforcement officers, active 
criminals are ``on duty'' around the clock, 24-7. Many even knowingly 
targeted police officers and their families, recognizing that the 
officer was likely to be unarmed at home. The legislative record 
documented several instances which illuminated the need for the Law 
Enforcement Officers Safety Act:

        <bullet>  In Orlando, Florida, a quick-thinking off-duty deputy 
        sheriff picking relatives up at a bus terminal killed an armed 
        suspect. After seeing the subject shoot at another person 
        outside the bus station, the plainclothes deputy confronted the 
        shooter who then turned his gun on the officer. Finding himself 
        in a life-threatening situation, the deputy fired his gun, 
        saving his own life but fatally wounding the assailant.

        <bullet>  In Long Island, N.Y., a retired officer was at the 
        right place at the right time when a man in a black hood 
        decided to rob a bank. The robber waved around a realistic-
        looking toy gun and ordered the customers to lie on the floor. 
        The retired officer followed the robber as he fled to a nearby 
        gas station, and attempted to apprehend him. Suddenly, the 
        gunman turned his weapon on the officer. Left with no other 
        option, the ex-officer shot the robber who then fled in a 
        vehicle and crashed into a tree about 100 yards away.

        <bullet>  In Brooklyn, New York, an off-duty police sergeant 
        was beaten by a teen armed with a hammer shortly after 
        midnight. The sergeant, who had just used an ATM, refused to 
        hand his money over when the attacker decided to use force. 
        This alert 13-year police veteran was able to ward off his 
        assailant by shooting him in the leg.

        <bullet>  A Staten Island robber was fatally shot in the chest 
        by an off-duty New Jersey officer. Three men reportedly try to 
        rob the officer as he walked with a friend down the street 
        shortly after 3 a.m. The officer says he felt a gun in his back 
        as the robbers demanded money; the officer spun around and 
        responded with deadly force; the other two suspects fled.

    As I stated, I supported the legislation in the 108th Congress and 
I am very interested in hearing from our witnesses how effective this 
legislation has been in achieving its intended purposes and whether 
circumstances warrant an additional legislative response, be it 
expansive or restrictive.
    Thank you again, Mr. Chairman, for convening this hearing. I yield 
back my time.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
